No. 19-1261

   

INTHE
Supreme Court of the United States

TRENT MICHAEL TAYLOR,

Petitioner,

Vv.

ROBERT RIOJAS, SERGEANT OF CORRECTIONS OFFICER, INDIVIDUALLY AND IN THEIR
OFFICIAL CAPACITY; RICARDO CORTEZ, SERGEANT OF CORRECTIONS OFFICER,
INDIVIDUALLY AND IN THEIR OFFICIAL CAPACITY; STEPHEN HUNTER, CORRECTIONAL
OFFICER, INDIVIDUALLY AND IN THEIR OFFICIAL CAPACITY; LARRY DAVIDSON,
CORRECTIONAL OFFICER, INDIVIDUALLY AND IN THEIR OFFICIAL CAPACITY; SHANE
SWANEY, SERGEANT OF CORRECTIONS OFFICER, INDIVIDUALLY AND IN THEIR OFFICIAL
CAPACITY; JOE MARTINEZ,

Respondents.

CERTIFICATE OF SERVICE

 

I, Brianne J. Gorod, do hereby declare that on June 1, 2020, as required by
Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the Brief
of Constitutional Accountability Center as Amicus Curiae in Support of Petitioner on

counsel for each party to the above proceeding as follows:

Kelsi Brown Corkran Kyle Douglas Hawkins

Orrick, Herrington & Sutcliffe, L.L.P. Texas Attorney General’s Office
1152 15% St. NW, P.O. Box 12548 (MC 059)
Washington, DC 20005 Austin, TX 78711-2548
kcorkran@orrick.com Kyle.hawkins@oag.texas.gov

(202) 339-8497 (512) 936-1700

Counsel of Record for Petitioner, Counsel of Record for Respondents,

Trent Michael Taylor Robert Riojas, et al.
 

I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 1, 2020.

_ c
Byaawe(

  

Brianne
Counsel for Amicus Curiae
